¹.

In The Supreme Court of
the United States
))))))Ë))))))

BETTY E. SMITH, IN HER CAPACITY
AS ATTORNEY-IN-FACT FOR DR. PAUL
C. SMITH, INDIVIDUALLY
AND ON BEHALF OF THE
ERISA-COVERED PLAN,
Petitioner
v.

HPR CLINIC, LLC; DOCTOR
HARRY NGUYEN; DOCTOR RYAN
FRYMAN,
Respondents.

))))))Ë))))))

Petition For A Writ Of Certiorari
To The United States Court of Appeals
For The Sixth Circuit
))))))Ë))))))

PETITION FOR A WRIT OF CERTIORARI
with Appendix

))))))Ë))))))
Leo P. Ross
ATTORNEY AT LAW
915 S. High St
Columbus, Ohio 43206
leoross1977@gmail.com
614-316-9144
Counsel for Petitioner
August, 2021

QUESTION PRESENTED
Whether the Court should resolve the
following question of first impression:
Whether an expert appointed by
agreement of the parties by a District
Court under Federal Rule of Evidence
706 must employ methodology that is
generally accepted within the relevant
industry and comply with the Daubert
qualitative standards?

i

PARTIES
The parties to the proceeding are identified in
the style of the case.
CORPORATE DISCLOSURE STATEMENT
Because no Petitioner is a corporation, a
corporate disclosure statement is not required under
Supreme Court Rule 29.6.

ii

TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . i
PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . vi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CITATION OF OPINIONS . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . 7
REASONS FOR GRANT OF PETITION . . . . 11

iii

I.

This

Case

Presents

A

Superior Vehicle For Addressing
The Important And Novel Issue Of
How Daubert Outcomes In Federal
District Court Affect Settlement. . . . . 11
II.

The Courts Below Abdicated

Their Fundamental Duties Under
Daubert by Foregoing Any
Adversarial Discovery, Assessment
or Cross-Examination of the
Expert . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . 21

APPENDIX

UNITED STATES COURT
SIXTH CIRCUIT FILINGS:

OF

APPEALS

FOR THE

Order, filed March 23, 2021 . . . . . . . . . . A1 - A2
Order, filed February 19, 2021 . . . . . . . B1 - B5

iv

UNITED STATES DISTRICT COURT FOR
SOUTHERN DISTRICT OF OHIO FILINGS:

THE

Order, filed May 19, 2020 . . . . . . . . . . . C1 - C4
Judgement, filed May 19, 2020 . . . . . . . D1 - D2

v

TABLE OF AUTHORITIES
Cases
Brock v. Scheuner Corp.,
841 F.2d 151 (6th Cir. 1988) . . . . . . . . . . . 17
Daubert v. Merrell Dow Pharmaceuticals, Inc.,
509 U.S. 579, 113 S. Ct. 2786,
125 L. Ed. 2d 469 (1993) . . . . . . . . . . passim
General Elec. Co. v. Joiner,
522 U.S. 136 (1997) . . . . . . . . . . . . . . . . . . 12
Glidden Co. v. Kinsella,
386 F. App'x 535 (6th Cir. 2010) . . . . . . . . 17
Hoult v. Hoult,
57 F.3d 1 (1st Cir. 1995). . . . . . . . . . . . . . . 15
Kumho Tire Co. v. Carmichael,
526 U.S. 137 (1999) . . . . . . . . . . . . . . . . 3, 12
McCormack v. City of Westland,
2019 U.S. App. LEXIS 11125,
2019 WL 4757905
(6th Cir. Apr. 15, 2019) . . . . . . . . . . . . . . . 17
Reed v. Cleveland Bd. of Educ.,
607 F.2d 737 (6th Cir. 1979) . . . . . . . . . . . 18

vi

Smith v. ABN AMRO Mortg. Grp. Inc.,
434 F. App'x 454 (6th Cir. 2011) . . . . . . . . 17
Webster v. Reproductive Health Servs.,
492 U.S. 490 (1989) . . . . . . . . . . . . . . . . . . 13

Rules
Federal Rule of Evidence 702 . . . . . . . . . . . . passim
Federal Rule of Evidence 706 . . . . . . . . . . . passim

Constitutional Provisions
U.S. Const. Amend. 14, § 1 . . . . . . . . . . . . . . . . . 5, 6

Other Authorities
David E. Bernstein, The Admissibility of Scientific
Evidence After Daubert v. Merrell Dow
Pharmaceuticals, Inc., 15 Cardozo L. Rev. 2139,
2165-66 (1994). . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Mori Irvine, Better Late Than Never: Settlement at
the Federal Court of Appeals, 1 J. App. Prac. &
Process
341 (1999), available at:
https://lawrepository.ualr.edu/appellatepracticeproc
ess/vol1/iss2/8 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

vii

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully petitions for a writ of
certiorari to review the judgment of the United
States Court of Appeals for the Sixth Circuit.

OPINIONS BELOW
The original Panel opinion and rehearing
opinion of the Court of Appeals are reported at,
respectively, Smith v. HPR Clinic, LLC, No. 20-3573,
836 F. App'x 431 (6th Cir. Feb. 19, 2021) (App., infra,
32-36) and Smith v. HPR Clinic, LLC, No. 20-3573,
2021 U.S. App. LEXIS 8517 (6th Cir. Mar. 23, 2021)
(App., infra, 37).
The opinion of the district court, Betty E.
Smith v. HPR Clinic, LLC, et al., Case No.
2:19-cv-464 (S.D. Ohio May 19, 2020) (App., infra,
38-40), is unreported.

1

JURISDICTION
The judgment of the Court of Appeals was
entered on February 19, 2021 (App., infra, 32-36). A
petition for rehearing was denied by the Court of
Appeals on March 23, 2021 (App., infra, 37). On
March 19, 2020, this Court issued a standing order
that extended the time for filing a petition for a writ
of certiorari, which remains in effect and establishes
a 150-day deadline for a timely petition-here, until
August 20, 2021. The jurisdiction of this Court is
invoked under 28 U.S.C. §1254(1).

CITATION OF OPINIONS
1.

Betty E. Smith v. HPR Clinic, LLC, et al.,
Case No. 2:19-cv-464 (S.D. Ohio May 19, 2020).

2.

Smith v. HPR Clinic, LLC,
No. 20-3573, 836 F. App'x 431
(6th Cir. Feb. 19, 2021).

3.

Smith v. HPR Clinic, LLC,
No. 20-3573, 2021 U.S. App. LEXIS 8517
(6th Cir. Mar. 23, 2021).

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Daubert v. Merrell Dow Pharmaceuticals, Inc., 509
U.S. 579 (1993) ("Daubert"), holding that the Federal
Rules of Evidence, Rule 702, superseded the former
"Frye" standard for admitting expert testimony in
Federal Court cases, and requires the trial judge to
act as a gatekeeper, admitting expert testimony only
if it is both relevant and reliable.
Kumho Tire Co. v. Carmichael, 526 U.S. 137 (1999),
in which the Court clarified that the district court's
gatekeeper function applies to all expert testimony,
not just testimony based in science.
Federal Rules of Evidence, Rule 702 provides:
Testimony by Expert Witnesses
A witness who is qualified as an expert
by knowledge, skill, experience,
training, or education may testify in the
form of an opinion or otherwise if:
(a) the expert's scientific,
technical, or other specialized
knowledge will help the trier of

3

fact to understand the evidence
or to determine a fact in issue;
(b) the testimony is based on
sufficient facts or data;
(c) the testimony is the product of
reliable principles and methods;
and
(d) the expert has reliably
applied the principles and
methods to the facts of the case.
Federal Rules of Evidence, Rule 706 provides in
relevant part:
Court-Appointed Expert
(a) Appointment Process. On a party's
motion or on its own, the court may
order the parties to show cause why
expert witnesses should not be
appointed and may ask the parties to
submit nominations. The court may
appoint any expert that the parties
agree on and any of its own choosing.
But the court may only appoint
someone who consents to act.
(b) Expert's Role. The court must inform
the expert of the expert's duties. The
4

court may do so in writing and have a
copy filed with the clerk or may do so
orally at a conference in which the
parties have an opportunity to
participate. The expert:
(1) must advise the parties of any
findings the expert makes;
(2) may be deposed by any party;
(3) may be called to testify by the
court or any party; and
(4) may be cross-examined by any
party, including the party that
called the expert.
***
(e) Parties' Choice of Their Own
Experts. This rule does not limit a party
in calling its own experts.
U.S. Const. Amend. 14, § 1:
All persons born or naturalized in the
United States, and subject to the
jurisdiction thereof, are citizens of the
United States and of the State wherein
they reside. No State shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of
5

the United States; nor shall any State
deprive any person of life, liberty, or
property, without due process of law;
nor deny to any person within its
jurisdiction the equal protection of the
laws.

6

STATEMENT OF THE CASE
This action involves a dispute between
members of an Ohio limited liability company, HPR
Clinic, LLC, concerning the value of a withdrawing
member's interest in the company. The withdrawing
member, Dr. Paul C. Smith, is over 70 years old and
now incapacitated. Dr. Smith brought this suit
through his sister, the Petitioner Betty Smith
("Petitioner"). Dr. Smith and Respondents Dr. Harry
Nguyen and Dr. Ryan Fryman were members of the
HPR Clinic. The Complaint alleges that the
Respondents unlawfully deprived Dr. Smith of his
property interests, including compensation and
insurance benefits and through the unlawful and
unconstitutional taking of this property, without
prior notice or an opportunity to be heard. (ECF 1, 1,
5, 8, 10, 12).
This case was initially filed by Petitioner in
the Franklin County, Ohio, Court of Common Pleas,
but was voluntarily dismissed and refiled in federal
district court for the Southern District of Ohio on
February 12, 2019. (ECF 1; Ct. App. Doc. No. 43-1, p.
7). The entire reason for refiling this matter in
federal court was to obtain the benefit of the Federal
Rules of Evidence regarding experts. (Ct. App. Doc.
No. 43-1, p. 7).
7

Following initial litigation in the district court,
on September 24, 2019, the parties jointly moved for
appointment of a Fed. R. Evid. 706 expert to
determine the value of Dr. Smith's interest in the
HPR Clinic. The parties agreed that they would
accept the valuation of a Rule 706 expert. (ECF 29).
On October 1, 2019, the district court granted the
parties' joint motion for appointment of a Rule 706
expert. (ECF 32). On October 3, 2019, the district
court appointed Rebekah Smith of GBQ Consulting
("Ms. Smith"), a certified public accountant who is
certified in financial forensics ("CFF"). (ECF 33).
Again, Ms. Smith is an expert appointed by the
Court pursuant to Rule 706; she was not chosen by
the parties. Petitioner has maintained throughout
this case that implicit in the agreement to accept a
court-appointed expert's opinion, was the duty of any
expert appointed to employ basic industry standards
in connection with the evaluation process. (ECF 49,
PAGEID # 446). Unfortunately, however, basic
industry standards were not applied by the expert
here, and the valuation provided is totally baseless.
The expert's valuation does not meet the standards
applicable to an expert providing testimony in a case
in federal court because the methodology the expert
employed was flawed. First, the HPR Clinic failed to
include a method of valuation for the expert in its
8

origination documents. The company does not have
an operating agreement.
Despite the absence of an operating
agreement, standard industry valuation approaches
are available to determine the Clinic's enterprise
value. Although the expert purports to rely on
standard industry approaches to valuation, she
begins from the fundamentally flawed point of
departure that the Company's 2017 revenue was only
$1,300.00. The expert then fails to gather crucially
relevant information concerning the gross revenue
generated through the company for each member.
This failure alone is fatal to the Report. Moreover,
Ms. Smith filed an evaluation report with the district
court that failed to meet the minimum professional
reporting standards for a CFF prepared report under
the industry standard established by the National
Association of Certified Valuation and Analysts.
(ECF 45).
Accordingly, on May 14, 2020, Petitioner
moved to reject Ms. Smith's report under the
provisions of Federal Rules of Evidence 702 and 706.
(ECF 49). On May 19, 2020, the district court denied
Petitioner's motion to reject Ms. Smith's valuation,
stating:
"[A] settlement agreement is a contract,
and as such, is enforceable under
9

contract law principles." Echols v.
Williams, 267 F. Supp. 2d 865, 867
(S.D. Ohio 2003). Plaintiff is not
entitled to repudiate the settlement
agreement because she is unhappy with
Ms. Smith's conclusion or because Ms.
Smith did not take into account
information Plaintiff believes is crucial
to the evaluation. Id. ("There is no basis
to rescind a contract in the mere . . .
regret of having agreed to its terms.").
(ECF 52, App., infra, 38). The final Judgment was
entered in the District Court on May 19, 2020. (App.,
infra, 40-41).
Petitioner filed a timely notice of appeal to the
Sixth Circuit Court of Appeals on July 1, 2020. (ECF
54). On appeal, Petitioner renewed her arguments,
among others, that the expert's valuation did not
comport with the standards for expert testimony in
Federal Rule of Evidence 706 and Daubert. The Sixth
Circuit affirmed the district court's decision on the
purported grounds that the parties had "settled this
case." (App., infra, 34). However, the Sixth Circuit
incorrectly described the parties' agreement and
disregarded that part and parcel of a federal expert's
duty is to comport with the standards for expert

10

testimony in the Federal Rules of Evidence and
Daubert. (App., infra, 33-35).
Petitioner timely petitioned for rehearing en
banc. (Ct. App. No. 43-1). On March 23, 2021, the
Sixth Circuit issued an order denying the rehearing
petition. (App., infra, 36).

REASONS FOR GRANT OF PETITION

I

This Case Presents A Superior
Vehicle For Addressing The
Important And Novel Issue Of How
Daubert Outcomes In Federal
District Court Affect Settlement.

In 1993, the Supreme Court established a new
standard for the admissibility of expert evidence with
its

decision

in

Daubert

v.

Merrell

Dow

Pharmaceuticals. Daubert and its progeny are at the
very core of federal jurisprudence. However, an
undecided topic to date is how Daubert standards
apply in the Federal settlement/quasi-litigation
context. Granting this Petition would fill that gap by
examining how Daubert outcomes in federal district
11

court affect settlement. Here, in a case of apparent
first impression, the Sixth Circuit refused to apply
the Daubert standard or Federal Rules of Evidence to
the parties’ expert in the settlement context.
Therefore, this case presents a superior vehicle for
addressing this important and novel issue.
Daubert was the first case this Honorable
Court decided in a trilogy of cases about the
admissibility of expert testimony. See also General
Elec. Co. v. Joiner, 522 U.S. 136 (1997); Kumho Tire
Co. v. Carmichael, 526 U.S. 137 (1999). Because
expert witnesses play a central role in civil litigation,
this trilogy of cases has had a profound impact on the
outcome of innumerable cases. Following Daubert, it
became the district courts’ responsibility to ensure
that all expert evidence “rests on a reliable
foundation.” Daubert, 509 U.S. at 597. District courts
have a “gatekeeping role” in screening the reliability
of expert testimony. Kumho Tire at 152.
District courts are given “broad latitude” in
making this assessment. Id. at 142 (citing Gen. Elec,
522 U.S. at 143). Over a period of nearly twenty
years, Daubert has shifted the focus of the inquiry
from the scientific conclusion offered by the expert to
the methodologies used by the expert to reach that
conclusion. However, in this case the Sixth Circuit
12

disregarded and refused to consider the expert
methodologies or standards imposed by Daubert and
Federal Rules of Evidence 702 and 706 because the
parties had agreed that they would accept the
valuation of a qualified Rule 706 expert. (App., infra,
31-35).
Even ignoring the obvious paradox and
injustice of that decision, Petitioner respectfully
submits that if this case is not heard the Sixth
Circuit’s decision could wreak havoc on federal court
litigation with a chilling effect on settlements. Nearly
95% of all federal civil cases settle before trial,
leaving less than five percent of civil cases to be tried
or appealed. Mori Irvine, Better Late Than Never:
Settlement at the Federal Court of Appeals, 1 J. App.
Prac. & Process 341 (1999), available at:
https://lawrepository.ualr.edu/appellatepracticeproc
ess/vol1/iss2/8 However, as the author of Daubert
wrot in another context: “The signs are evident and
very ominous, and a chill wind blows.” 391 Webster v.
Reproductive Health Servs., 492 U.S. 490, 560 (1989)
In contrast to the Sixth Circuit's dismissive
view of this Court's landmark decision, Daubert
instructs district courts to conduct a preliminary
assessment of the reliability of expert testimony,
even in the absence of an objection:
13

[U]nder the Rules the trial judge must ensure
that any and all scientific testimony or
evidence admitted is not only relevant, but
reliable.
The primary locus of this obligation is
Rule 702, which clearly contemplates some
degree of regulation of the subjects and
theories about which an expert may testify. “If
scientific, technical, or other specialized
knowledge will assist the trier of fact to
understand the evidence or to determine a fact
in issue” an expert “may testify thereto.”
(Emphasis added.) The subject of an expert's
testimony must be "scientific . . . knowledge."
8 [fn. 8: “Rule also applies to "technical, or
other specialized knowledge. Our discussion is
limited to the scientific context because that is
the nature of the expertise offered here.”]. The
adjective "scientific" implies a grounding in the
methods and procedures of science. Similarly,
the word "knowledge" connotes more than
subjective belief or unsupported speculation.
The term “applies to any body of known facts
or to any body of ideas inferred from such facts
or accepted as truths on good grounds.”

14

Webster's Third New International Dictionary
1252 (1986).
Daubert, 509 U.S. at 589-90 (underscore added); see
also Hoult v. Hoult, 57 F.3d 1, 4 (1st Cir. 1995).
Daubert demands that in reviewing the
expert's principles and methodology, a court should
determine whether “the principle support[s] what it
purports to show.” See Daubert, 509 U.S. at 601, fn.
9. Daubert therefore not only allows, but demands,
courts to determine whether an expert’s
extrapolations from underlying studies or data are
proper, or whether the expert has committed
scientific or mathematical errors. David E. Bernstein,
The Admissibility of Scientific Evidence After
Daubert v. Merrell Dow Pharmaceuticals, Inc., 15
Cardozo L. Rev. 2139, 2165-66 (1994).
Here, Petitioner sought and secured Federal
court jurisdiction precisely because a professional,
standard-based analysis is critical to the proper
valuation of Dr. Smith's interest in the Clinic - which
interest represents the value of his life work as a
practicing physician. Surely this is worthy of a
reliable expert valuation and thus review by this
Honorable Court.
Critically, the expert in this case was
appointed by the District Court expressly pursuant to
15

Rule 706. (ECF 29). Federal Rule of Evidence 706
jurisprudence should thus incorporate the Daubert
standard, whether the expert testifies in court or not.
To say that the Daubert framework disappears
when the expert is not called to testify at trial, but
not when she was appointed pursuant to Rule 706 is
to invite every expert merely to invoke the means by
which they acquired expertise, rather than the
expertise itself in presenting their opinions. And
why should expertise be exempt from Daubert
because it was procured for settlement but not
otherwise? It cannot be that the vital requirements
set forth in Daubert are so easily circumvented.
Moreover, the Sixth Circuit’s decision, if
permitted to stand, will lead to patently incorrect
results. It would allow expert witnesses who sought
to provide “expert” opinions, as here, without Daubert
standards, gatekeeping or cross-examination by the
litigants. It is difficult to imagine any kind of
scientific or technical expertise that could not be
recast without a proper or reliable foundation. Under
the Sixth Circuit’s view, then, a valuation expert
could ignore shortcomings in her technique or
methodology merely by issuing it after any Rule 706
appointment; and a damages expert in a contract
case could present an opinion that departs
16

substantially from the prevailing standards of
property valuation by nebulously invoking her
“experience.” That cannot be the law.
The Sixth Circuit’s Panel Opinion also
incorrectly states that “the parties agreed to be bound
by whatever valuation the expert chose.” (App., infra,
33-34) (emphasis added). The Panel Opinion further
states “nothing in the settlement gave a party the
right to challenge the valuation.” (App., infra, 34).
Both of these statements are clearly incorrect.
Rather, as the Panel stated:
A settlement agreement that occurs during a
suit qualifies as a contract binding on, and
enforceable by, the parties just like any other
contract. See, e.g., McCormack v. City of
Westland, 2019 U.S. App. LEXIS 11125, 2019
WL 4757905, at *2-3 (6th Cir. Apr. 15, 2019)
(order); Smith v. ABN AMRO Mortg. Grp. Inc.,
434 F. App'x 454, 460 (6th Cir. 2011). And
when parties form a valid contract under the
relevant state law, a court is required to
"enforce the settlement as agreed to by the
parties and is not permitted to alter the terms
of the agreement." Glidden Co. v. Kinsella, 386
F. App'x 535 (6th Cir. 2010) (quoting Brock v.
Scheuner Corp., 841 F.2d 151 (6th Cir. 1988).
17

(App., infra, 34) (emphasis added).
Here, it is undisputed that the parties'
settlement was predicated on a Rule 706 quality
opinion, not an opinion based on the specious
qualitatively invalid methodology used here by the
expert. The settlement agreed to by the parties was
a Federal Rule 706 Report. The parties clearly did
not receive that. (See ECF 49).
The Sixth Circuit's error ultimately emanates
from that Court's refusal to acknowledge that the
explicitly agreed authority for appointment of the
expert was Rule 706. (ECF 29). The Court's
disregard of the nature of this appointment, in turn,
marked a matter of first impression for the Sixth
Circuit and for this Honorable Court. It also
necessarily distinguishes the present case from those
involving appointment of non-Rule 706 technical
advisors. See, e.g., Reed v. Cleveland Bd. of Educ.,
607 F.2d 737, 746 (6th Cir. 1979). The issue for this
Court to resolve, therefore, is whether the
well-established Federal standards for experts are to
be enforced or instead disregarded when they are a
clear component of the parties' agreement. This
Honorable Court should grant certiorari not only
because this is a novel issue but the Sixth Circuit's

18

decision also has the real potential of chilling future
Federal court settlements.

II.

The Courts Below Abdicated Their
Funda m ental Duties Under
Daubert by Foregoing Any
Adversarial Discovery, Assessment
or Cross-Examination of the Expert

When asked by Petitioner to reject the expert
Report because it is baseless and unreliable under
Rule 702 and 706 standards (ECF 49), the District
Court summarily denied this request. (App., infra,
37-39). The District Court's analysis was not
supported by any adversarial discovery. Nor was the
District Court's analysis supported by any Daubert
scrutiny because the Court rejected the notion that it
applied. Thus, the hearing on the expert Report could
not have afforded the District Court a genuine
opportunity to rigorously inspect the validity of any
"scientific" or accounting concepts justifying the
expert's valuation.
For the District Court, this case was only
about the existence of a settlement. Yet it refused to
examine whether or not the Report satisfied the
parties' agreement that the expert provide a Rule 706
19

quality expert report, and the Sixth Circuit
sanctioned this refusal.
It was irrational for the courts below to
determine that the settlement terms were somehow
satisfied without having any grasp of how the expert
arrived at her valuation in the Report. By neglecting
to undertake Daubert scrutiny of the methodology
underlying the expert Report, the courts below failed
this mandate, abdicated their duty to the litigants
and engaged in no Daubert assessment whatsover.
Put simply: the courts below did not have any
reliable basis upon which to accept the Report.
Review by this Court will enable the
establishment of guidelines for federal courts in
connection with their duties to conduct a Daubert
assessment in a settlement context, particularly
when it comes to professional company and member
interest valuations. This case will thus afford this
Honorable Court an opportunity to provide necessary,
modern-day guidance on how to implement these
principles flowing from Daubert and its progeny.

20

CONCLUSION
Based on the foregoing, Petitioner respectfully
submits that this Petition for Writ of Certiorari
should be granted. Petitioner further requests that
this Court consider summary reversal of the decision
of the Sixth Circuit Court of Appeals

Respectfully submitted,

August 20, 2021
Respectfully submitted,
s/Leo P. Ross
Leo P. Ross
ATTORNEY AT LAW
915 S. High St
Columbus, Ohio 43206
leoross1977@gmail.com
614-316-9144

21

APPENDIX
UNITED STATES COURT OF APPEALS
SIXTH CIRCUIT FILINGS:

FOR THE

Order, filed March 23, 2021 . . . . . . . . . . A1 - A2
Order, filed February 19, 2021 . . . . . . . B1 - B5

UNITED STATES DISTRICT COURT FOR
SOUTHERN DISTRICT OF OHIO FILINGS:

THE

Order, filed May 19, 2020 . . . . . . . . . . . C1 - C4
Judgement, filed May 19, 2020 . . . . . . . D1 - D2

))))))Ë))))))

No. 20-3573
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FILED
March 23, 2021
DEBORAH S. HUNT, Clerk
BETTY E. SMITH, in her capacity as
attorney-in-fact for Dr. Paul C. Smith,
individually and on behalf of the
ERISA-covered plan,
Plaintiff-Appellant,
v.

ORDER

HPR CLINIC, LLC;
DOCTOR HARRY NGUYEN;
DOCTOR RYAN FRYMAN,
Defendants-Appellees.
and
BEFORE: CLAY, READLER, and MURPHY,
Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for rehearing and
concludes that the issues raised in the petition were fully
considered upon the original submission and decision of the
case. The petition then was circulated to the full court. No
judge has requested a vote on the suggestion for rehearing en
banc.

A-1

Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
/s/Deborah S. Hunt
Deborah S. Hunt, Clerk

A-2

No. 20-3573
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FILED
Feb 19, 2021
DEBORAH S. HUNT, Clerk
BETTY E. SMITH, in her capacity as
attorney-in-fact for Dr. Paul C. Smith,
individually and on behalf of the
ERISA-covered plan,
ON APPEAL
FROM THE
Plaintiff-Appellant,
UNITED STATES
v.
DISTRICT
COURT FOR THE
HPR CLINIC, LLC;
SOUTHERN
DOCTOR HARRY NGUYEN; DISTRICT OF
OHIO
DOCTOR RYAN FRYMAN,
Defendants-Appellees.
and
BEFORE: CLAY, READLER, and MURPHY,
Circuit Judges.
MURPHY, Circuit Judge. Dr. Paul Smith settled this
case by agreeing to be bound by an expert’s valuation of his
clinic, but he later claimed that this valuation violated
Federal Rule of Evidence 702. As the district court correctly
noted, the parties’ settlement agreement did not include a

B-1

right to assert an after-the-fact challenge to the valuation. We
thus affirm.
Dr. Smith, who is now incapacitated, brought this suit
through his sister, Betty Smith. The complaint alleged that
Dr. Smith, Dr. Harry Nguyen, and Dr. Ryan Fryman were
members of HPR Clinic, a limited liability company. HPR
Clinic lacked an operating agreement. In the complaint, Dr.
Smith (through his sister) asserted that the three doctors had
an “implicit” agreement in which they would evenly share
patients, revenue, and expenses. Drs. Nguyen and Fryman, by
contrast, viewed HPR Clinic as simply a means through
which the doctors paid shared overhead expenses for their
individual practices. The complaint nevertheless alleged that
Drs. Nguyen and Fryman violated the implicit agreement by
diverting patients from Dr. Smith. It also alleged that they
deprived Dr. Smith of the benefits to which he was entitled
under “employee benefit plans” purportedly regulated by the
Employee Retirement Income Security Act of 1974 (ERISA).
The complaint thus asserted claims under ERISA and state
law.
The parties settled the suit while the defendants’
motion to dismiss remained pending. The settlement required

B-2

each side to identify two potential experts to appraise HPR
Clinic, and it directed the district court to choose one
appraiser from among the four potential experts. The parties
agreed to be bound by the expert’s valuation. The court’s
chosen expert estimated HPR Clinic’s value as $14,140,
which left Dr. Smith with $4,242 of equity in the clinic. After
receiving this report, the court ordered the parties to complete
their settlement and dismiss the suit within 30 days. The
defendants lived up to their side of the bargain by paying Dr.
Smith $4,242. Dr. Smith did not: One day after the required
dismissal date, he filed a motion to reject the expert’s
valuation on the ground that it violated the standards for
expert witnesses in Federal Rule of Evidence 702 and
Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579
(1993).
The district court found Dr. Smith’s motion “untimely
and meritless.” The court reasoned that the federal rules did
not apply because the expert was not a witness at trial.
Rather, the expert’s valuation resulted from the parties’
settlement, and they agreed to be bound by whatever
valuation the expert chose. The court added that nothing in

B-3

the settlement gave a party the right to challenge the
valuation. It thus dismissed this case with prejudice.
On appeal, Dr. Smith renews his argument that the
expert’s valuation did not comport with the standards for
expert testimony in Federal Rule of Evidence 702 and
Daubert. Yet the parties settled this case. A settlement
agreement that occurs during a suit qualifies as a contract
binding on, and enforceable by, the parties just like any other
contract. See, e.g., McCormack v. City of Westland, 2019 WL
4757905, at *2–3 (6th Cir. Apr. 15, 2019) (order); Smith v.
ABN AMRO Mortg. Grp. Inc., 434 F. App’x 454, 460 (6th
Cir. 2011). And when parties form a valid contract under the
relevant state law, a court is required to “enforce the
settlement as agreed to by the parties and is not permitted to
alter the terms of the agreement.” Glidden Co. v. Kinsella,
386 F. App’x 535, 543 (6th Cir. 2010) (quoting Brock v.
Scheuner Corp., 841 F.2d 151, 154 (6th Cir. 1988)).
These standards foreclose Dr. Smith’s appeal. He does
not dispute that the parties entered into a legally binding
contract under Ohio law. See Smith, 434 F. App’x at 460. Nor
does he dispute that their agreement made the chosen
expert’s valuation “binding on all of the parties.” Dr. Smith

B-4

also fails to identify any term in the agreement that required
the chosen expert to meet the standards for expert witnesses
that otherwise would apply if the expert had testified in court.
And he identifies nothing in the agreement that gave a party
the right to lodge an after-the-fact objection to the expert’s
valuation if the party disagreed with the expert’s calculations.
If Dr. Smith sought to preserve this type of right, he should
have placed that term into the settlement agreement. Like the
district court, therefore, we see no basis in this legally
binding contract for Dr. Smith to raise the type of evidentiary
objection that he now makes. In short, Dr. Smith voluntarily
chose to settle this suit and he must live with the terms of the
settlement that he agreed to. See Glidden, 386 F. App’x at
543.

We affirm.

B-5

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
BETTY E. SMITH,
Plaintiff, Case No. 2:19-cv-464
Judge Sarah D. Morrison
Magistrate Judge Chelsey M.
v
Vascura
HPR CLINIC, LLC, et al.,
Defendants.
ORDER
This matter comes before the Court on
Plaintiff’s Motion to Reject Valuation and Response
to the Court’s Show Cause Order (ECF No. 49), filed
on May 14, 2020. On May 18, Defendants filed a
Response in Opposition. (ECF No. 51). For the
reasons that follow, Plaintiff’s Motion is DENIED.
After notifying the Court that a settlement
agreement had been reached in this case, on October
1, 2019, an Agreed Order was filed by the parties,
requesting that the Court “appoint an expert to
appraise the value of HPR Clinic, LLC.” (ECF No.
32). Contrary to Plaintiff’s disingenuous assertion
that Rebekah Smith was a “court-appointed expert”
and “not one chosen by the parties,” (3, ECF No. 49),
both sides agreed to provide the names of two experts
along with their CVs and hourly rate schedules to the
Court to make an appointment. Based on the
information provided by the parties, the Court
determined that Ms. Smith, proposed by Defendants,
C-1

was the most qualified person to perform the
valuation. No one objected to the Court’s selection.
And frankly, the information provided by Plaintiff
regarding its two proposed experts left much to be
desired.1
The parties agreed that the appointed expert
would complete an evaluation within 60 days, both
sides would split the cost of the expert, and “the
evaluation will be binding on all of the parties.” (¶ 7,
ECF No. 32). After much admonishing by the Court,
Ms. Smith’s expert report was finally completed and
provided to the Court and the parties on April 13,
2020. (ECF No. 44). Pursuant to the Agreed Order,
the Court directed the parties to submit 50%
payment to Ms. Smith within 15 days, provide proof
of payment to the Court seven days thereafter, and
file a dismissal entry by May 13. (Id.).
Both sides filed their Notice of Compliance
with the Court’s April 13 Order, indicating that they
made the required payment to Ms. Smith. (ECF Nos.
45, 46). Moreover, Defendants notified the Court that
pursuant to Ms. Smith’s report, they issued payment
in the amount of $4,242.00 to Plaintiff. (ECF No. 45).
Yet, more than a month after Ms. Smith’s report was
finalized and one day after the deadline to file the
dismissal entry in this case passed, Plaintiff
1

The resume provided for Paul Patterson was nine
bullet points. (ECF No. 30-1). Howard Zitsman’s
most recent occupation as Economics faculty at Ohio
Wesleyan University ended May 2018. (ECF No.
30-2).
C-2

requested the Court reject Ms. Smith’s conclusion
regarding HPR’s value because Ms. Smith “failed to
ascertain the amount of revenue each member
derived from HPR or to review the personal tax
returns of all members.” (5, ECF No. 49). Plaintiff’s
Motion is both untimely and meritless.
While the Court is the gatekeeper regarding
expert testimony, this case never went to trial.
Instead the parties reached a settlement agreement
where they explicitly agreed to be bound by the
evaluation of an expert proposed by the parties and
selected by the Court. (¶ 7, ECF No. 32). The Agreed
Order did not provide for an exception if one side did
not agree with the expert’s methodology or the
ultimate outcome of the report. “[A] settlement
agreement is a contract, and as such, is enforceable
under contract law principles.” Echols v. Williams,
267 F. Supp. 2d 865, 867 (S.D. Ohio 2003). Plaintiff
is not entitled to repudiate the settlement agreement
because she is unhappy with Ms. Smith’s conclusion
or because Ms. Smith did not take into account
information Plaintiff believes is crucial to the
evaluation. Id. (“There is no basis to rescind a
contract in the mere . . . regret of having agreed to its
terms.”). Moreover, the Court has reviewed Ms.
Smith’s report and disagrees with Plaintiff’s assigned
deficiency.
Accordingly, Plaintiff’s Motion is DENIED.
(ECF No. 49). Pursuant to the parties’ Agreed Order
(ECF No. 32) and the Court’s April 13 Order (ECF
No. 43), the case is DISMISSED with prejudice. The
Court retains jurisdiction to enforce the terms of the

C-3

settlement. The Clerk is DIRECTED to
TERMINATE this case from the docket records of
the United States District Court for the Southern
District of Ohio, Eastern Division.
IT IS SO ORDERED.
/s/ Sarah D. Morrison
SARAH D. MORRISON
UNITED STATES DISTRICT JUDGE

C-4

UNITED STATES DISTRICT COURT
FOR THE
SOUTHERN DISTRICT OF OHIO

BETTY E. SMITH,
Plaintiff,
v

Civil Action No. 2:19-cv-464

HPR CLINIC, LLC, et al.,
Defendants.
JUDGMENT IN A CIVIL ACTION
The court has ordered that (check one):
the plaintiff (name) recover from the defendant
(name) the amount of dollars ($ ), which includes
prejudgment interest at the rate of %, plus post
judgment interest at the rate of % per annum, along
with costs.
the plaintiff recover nothing, the action be dismissed
on the merits, and the defendant (name)
recover costs from the plaintiff (name)
X other: The Court denies Plaintiff's Motion to Reject
Valuation and Response to the Court's Show Cause
Order filed May 14, 2020. This case is dismissed
with prejudice. The Court retains jurisdiction to
enforce the terms of the settlement.
.
D-1

This action was (check one):
tried by a jury with Judge presiding, and the jury has
rendered a verdict.
tried by Judge without a jury and the above decision
was reached.
decided by Judge on a motion for
Date: 5/19/2020

CLERK OF COURT

D-2

